     Department of Homeland Security




           FEMA Public Assistance Funds Awarded to 

           Henderson Point Water and Sewer District, 

                  Pass Christian, Mississippi 





DA-12-18                                                 May 2012

                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
                                     Washington, DC 20528 1www.oig.dhs.goY

                                    May 11, 2012

MEMORANDUM fOR:                     Major P. (Phil) May
                                    R ional Administrator, Region V
                                                                 nt Agency

fROM :
                                    Assistant Inspector Ge era I
                                    Office of Emergency Management Oversight

SUBJECT:                            FEMA Public Assistance Grant Funds Awarded to
                                    Henderson Point Water and Sewer District, Pass Christian.
                                    Mississippi
                                    FEMA Disaster Number 1604-DR-MS
                                    Audit Report Number DA-12-18

We audited public assistance grant funds awarded to Henderson Point Water and Sewer
District (District) in Pass Christian, Mississippi (FIPS Code 047-U7IZ1-00). Our audit
objective was to determine whether the District accounted for and expended Federal
Emergency Management Agency (FEMA) grant funds according to Federal regulations
and FEMA guidelines.

As of September 29, 2011, the District had received a public assistance award of
$4.3 million from the Mississippi Emergency Management Agency (State), a FEMA
grantee, for damages resulting from Hurri cane Katrina, which occurred in August 2005.
The award provided 100 percent FEMA funding for emergency protective measures and
replacement of utilities, equipment, and buildings damaged as a result of the disaster.
                                                        1
The award included three large and four small projects.

We audited two large projects with awards totalin g $4.1 million and two small projects
totaling $52,450. The audit covered the period August 29, 2005, to September 29, 2011,
during which the District received $2.9 million for projects included in our scope (see
Exhibit, Schedule of Projects Audited). At the time of our audit, the Distri ct had not
completed work on all projects, and therefore had not submitted a final claim to the
State for project expenditures.

We conducted this performance audit between September 2011 and March 2012
pursuant to the Inspector General Act of 1978, as amended, and according to generally
accepted government auditing standards. Those standards require that we plan and


I Federal regulations in effect at the time of Hurrican e Katrina set the large project threshold at $55,500.
                                       OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objective. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objective. We conducted this audit by applying the statutes,
   regulations, and FEMA policies and guidelines in effect at the time of the disaster.

   We judgmentally selected project costs (generally based on dollar value); interviewed
   District, State, and FEMA personnel; reviewed the District’s procurement policies and
   procedures; reviewed applicable Federal regulations and FEMA guidelines; and
   performed other procedures considered necessary under the circumstances to
   accomplish our audit objective. We did not assess the adequacy of the District’s internal
   controls applicable to its grant activities because it was not necessary to accomplish our
   audit objective. However, we gained an understanding of the District’s method of
   accounting for disaster-related costs and its policies and procedures for administering
   activities provided for under the FEMA award.


                                                        BACKGROUND

   Henderson Point Water and Sewer District was created in 1965, by resolution of the
   Harrison County Board of Supervisors, to plan and provide sewer service to the
   residents of the District. The District served a community of 540 residences when
   Hurricane Katrina struck. The storm destroyed houses and buildings in the area and the
   existing grinder pump, pressure sewer system. In grinder pump systems, sewage flows
   to a wet well where a grinder pump grinds the solids and discharges the sewage into a
   pressurized pipe system (see figure 1).




           Figure 1: A typical residential pump system. 

           The diagram is representative of the District’s current system. Each residence has a grinder pump station with 

           a connection to the main service line. The District’s system also has electrical conduit and wiring for individual 

           residences’ electrical connection to grinder pump stations. 

           Source: www.tripledpump.com. 





www.oig.dhs.gov                                                    2                                                              DA-12-18
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                                      RESULTS OF AUDIT 


   The District accounted for FEMA projects on a project-by-project basis as required by
   Federal regulations and FEMA guidelines. However, the District did not comply with
   Federal procurement requirements when awarding contracts valued at $4,055,155. In
   addition, we identified $141,065 of ineligible costs, $443,440 of unsupported costs,
   $87,907 of funds that can be put to better use, and $1,555,313 of unnecessary costs.

   Finding A: Procurement Procedures

   The District did not follow Federal procurement standards in awarding $4,055,155 of
   contracts for replacement and repair work. Federal regulations at 2 CFR 215 require the
   following:

       •	 All procurement transactions shall be conducted in a manner to provide, to the
          maximum extent practical, open and free competition. (2 CFR 215.43)
       •	 Some form of cost or price analysis shall be made and documented in the
          procurement files in connection with every procurement action. (2 CFR 215.45)
       •	 Positive efforts shall be made by recipients to utilize small businesses, minority-
          owned firms, and women’s business enterprises whenever possible. (2 CFR
          215.44(b))

   Under Project 3380, the District did not openly compete a contract totaling $3,594,051
   for the replacement of grinder pump stations and electrical components. Also, under
   Project 5385, the District did not openly compete a contract totaling $461,104, for the
   repair of the sewage system collection lines. Instead, the District used a contractor with
   which it had an existing business relationship to complete the work authorized under
   the FEMA projects. District officials said that they made that decision because they
   were operating under a state of emergency at the time the replacement and repair work
   began on the sewer system. However, both projects were for permanent repair work
   (Category F) and should have been openly competed.

   Further, for both contracts, the District accepted the contractor’s proposed prices
   without performing an independent analysis of the prices to ensure reasonableness. In
   addition, no positive steps were taken to identify and use small businesses, minority-
   owned firms, women’s business enterprises, and labor surplus area firms. District
   officials said that they did not have a policy in place for using such businesses, and
   therefore did not take the necessary steps to comply with the regulation.

   Because the District did not follow Federal procurement requirements, we question
   $4,055,155 awarded for the contract work. This amount includes $2,175,275 of costs


www.oig.dhs.gov                                 3	                                       DA-12-18
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   we question under findings C, D, and E. Therefore, the net amount questioned for this
   finding is $1,879,880, which consists of $1,427,604 under Project 3380 and $452,276
   under Project 5385.

   Finding B: Small Project Work Not Performed

   The District received $52,450 of FEMA funds for emergency protective measures
   (Category B) under two small projects that it did not complete. Federal regulation 2 CFR
   215.62(a)(2) states that if a recipient materially fails to comply with the terms and
   conditions of an award, the Federal awarding agency may disallow all or part of the
   costs of the activity or action not in compliance. Further, 44 CFR 206.205(a) states that
   failure to complete a small project may require that the Federal payment be refunded.

   The District received $32,850 of FEMA funds under Project 2049 to plug the existing
   sewer system to prevent raw sewage from leaking. However, the District did not
   perform any work under the project because it decided to replace damaged grinder
   pump stations (Project 3380) within the system. According to District officials, the
   replacement of such devices negated the need to plug the system. Additionally, the
   District received $19,600 under Project 6041 for monthly rental of a temporary trailer
   and purchase of temporary office furnishings and supplies. However, the District did
   not complete any work under the project because it decided to meet at various
   locations to conduct business meetings rather than rent temporary office space. We
   question the $52,450 ($32,850 and $19,600) paid to the District under the two small
   projects because the authorized work was not performed.

   Finding C: Unsupported Costs

   The District did not have adequate source documentation to support $443,440 of
   contract charges under Project 3380 for the replacement of grinder pumps. Source
   documentation, such as material invoices and subcontractor invoices, did not support
   costs billed to the District by the prime contractor. This occurred because the invoices
   were based upon estimated costs instead of actual costs incurred. Federal regulation
   2 CFR 230(A)(2)(g) states that, to be allowable under an award, costs must be
   adequately documented. Therefore, we question $443,440 as unsupported costs.

   In addition, a preliminary review of Project 5385 indicates that $255,000 of funds
   advanced under the project may not be fully supported by contractor invoices. Because
   the District has not yet claimed actual contract costs for the project work, we are not
   questioning any amount at this time. However, we recommend that FEMA closely
   review the District’s claim under the project to ensure that all costs are adequately
   documented and are eligible.


www.oig.dhs.gov                                4                                        DA-12-18
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



   Finding D: Sales Tax

   The District claimed $1,265,934 of contract work under Project 3380 that included a
   7 percent sales tax totaling $88,615 that the District was exempt from paying because of
   its nonprofit and utility tax status. According to Mississippi Code Annotated, Section 27-
   65-107(c), sales to nonprofit water associations of property or services ordinary and
   necessary to the operation of the water association are exempt from sales tax.

   The contractor said that it charged the District the sales tax because the contractor had
   to incur the expense during the contract work to replace grinder pump stations.
   However, we noted that the contractor does not charge a sales tax for services provided
   under an operation and maintenance contract it has with the District. Under Mississippi
   law, there should be no tax to replace grinder pump stations and collection lines
   because such services are necessary to make residences habitable. Therefore, we are
   questioning $88,615 as ineligible costs under Project 3380.

   The 7 percent sales tax was also included in estimated costs used to write Projects 3380
   and 5385. Since the District is a tax-exempt entity, this estimate should not have been
   included in the obligated amount. Therefore, $87,907 should be deobligated and put to
   better use. This amount includes $79,079 under Project 3380 and $8,828 under Project
   5385.

   Finding E: Unnecessary Costs

   The District claimed $1,555,313 in unnecessary costs under Project 3380 for the
   replacement of grinder pump stations. The District replaced 388 grinder pump stations
   from April 2006 to May 2007 at a cost of $1,889,794. However, only 72 of the pumps
   were attached to inhabited residences. The remaining 316 pumps, totaling $1,555,313,
   were on vacant lots and not attached to residences (see figures 2 and 3). The lots had
   been vacant since the 2005 disaster, and there was no indication that the homeowners
   planned to rebuild. Also, since installation of the grinder pumps, the District has had an
   issue with grinder pumps and control panels being damaged and stolen. Cost Principles
   for Nonprofit Organizations (2 CFR 230, Appendix A, A.4.a(3)) states that a cost is
   allocable to a particular cost objective if it is necessary to the overall operation of the
   organization.




www.oig.dhs.gov                                 5                                         DA-12-18
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




       Figure 2: Grinder pump and control panel located at 300 Audubon Lane in Henderson Point. The grinder pump is
       not currently attached to a residence.
       Source: OIG site visit (December 8, 2011).




            Figure 3: Grinder pump and control panel located at 150 Lady Mary in Henderson Point. The grinder pump is not
            currently attached to a residence.
            Source: OIG site visit (December 28, 2011).


   Henderson Point-Pass Christian Isles Water and Sewer District NR. 1, Inc. ordinance,
   amended as of December 28, 2007, states, “property owners shall notify the District a
   minimum of 30 days prior to needing the installation.” The District did not determine
   whether residents were moving back to the area before giving the contractor


www.oig.dhs.gov                                                 6                                                           DA-12-18
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   permission to replace grinder pumps. District officials said that they were operating in a
   state of emergency and were trying to get the area back to its pre-Katrina status.
   District officials also said that it was necessary to replace the grinder pumps because the
   sewer system was wide open and would have caused raw sewage to come above
   ground. However, the District was awarded $32,850 under emergency measures
   Project 2049 to plug the existing sewer system to prevent raw sewage from leaking
   above ground (see finding B).

   We noted that the District has since changed its procedure for replacing damaged
   grinder pumps. Its current process is to wait until they are contacted by the resident to
   replace a grinder pump. However, the 316 pumps installed on the vacant lots under its
   previous procedures are not being used for their intended purpose. Therefore, we
   question $1,555,313 in unnecessary costs. Furthermore, the District was granted an
   extension until December 31, 2013, to complete the work. Therefore, FEMA will need
   to ensure that additional costs claimed to the project are eligible and allocable to the
   project.


                                     RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IV:

           Recommendation #1: Disallow $1,879,880 of ineligible contract costs unless
           FEMA grants the District an exception, with proper justification, to the applicable
           Federal procurement requirements (finding A).

           Recommendation #2: Disallow $52,450 in ineligible costs paid to the District for
           small projects that were not completed (finding B).

           Recommendation #3: Disallow $443,440 of unsupported costs for Project 3380
           (finding C).

           Recommendation #4: Validate costs claim for Project 5385 to supporting
           documentation to ensure that all costs are eligible (finding C).

           Recommendation #5: Disallow $88,615 of ineligible sales tax costs claimed
           (finding D).

           Recommendation #6: Deobligate and put to better use $87,907 of estimated
           sales tax costs included in obligated amounts under Projects 3380 and 5385
           (finding D).


www.oig.dhs.gov                                 7                                        DA-12-18
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           Recommendation #7: Disallow $1,555,313 of unnecessary costs claimed for
           inactive grinder pump stations (finding E).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of our audit with District, State, and FEMA officials during our
   audit. We also provided a draft report in advance to these officials and discussed it at
   the exit conference held on March 22, 2012. District officials withheld comments
   pending the receipt of the final report, saying that they needed more time to research
   the findings.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendation. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report were David Kimble, Eastern Region Audit Director;
   Larry Arnold, Audit Manager; Sharonda Toney, Auditor-in-charge; and Melissa Powe-
   Williams, Auditor.

   Please call me with any questions, or your staff may contact David Kimble, Eastern
   Region Audit Director, at (404) 832-6702.


   cc: 	   Administrator, FEMA
           Audit Liaison, FEMA Mississippi Recovery Office
           Audit Liaison, FEMA Region IV
           Audit Liaison, FEMA (Job Code G-11-071)
           Audit Liaison, DHS




www.oig.dhs.gov                                8	                                        DA-12-18
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


                                   Schedule of Projects Audited 

                               August 29, 2005, to September 29, 2011 

                              Henderson Point Water and Sewer District 

                                FEMA Disaster Number 1604-DR-MS 




Project                                       Amount        Amount       Amount      Funds Put to
Number              Project Scope             Awarded       Claimed     Questioned    Better Use     Findings


 2049     Service Line Plugs                    $32,850      $32,850       $32,850            $0        B
 3380     Grinder Pump Stations and
          Electrical Components                3,594,051    2,595,283    3,514,972        79,079    A, C, D, E
 5385     Collection Lines for the Pressure
          Sewage System                         461,104      255,000       452,276         8,828       A, D
 6041     Temporary Administration Office
          Space (Trailer)                        19,600       19,600        19,600             0        B

 Totals                                       $4,107,605   $2,902,733   $4,019,698       $87,907




www.oig.dhs.gov                                      9                                              DA-12-18
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
